No. 19-522
IN THE SUPREME COURT OF THE UNITED STATES
________________
TRADING TECHNOLOGIES INTERNATIONAL, INC., PETITIONER
v.
IBG LLC, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 20TH day of December, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7528 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on December 20, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 20, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0522
TRADING TECHNOLOGIES INTERNATIONAL, INC.
IBG LLC, ET AL.

STEVEN F. BORSAND
TRADING TECHNOLOGIES INTERNATIONAL
222 S. RIVERSIDE PLAZA
SUITE 1100
CHICAGO, IL 60606
ANDREW M. GROSSMAN
BAKER & HOSTETLER LLP
1050 CONNECTICUT AVE., NW
WASHINGTON, DC 20036
202-861-1697
AGROSSMAN@BAKERLAW.COM

